U.S. Department of the’lnt erior
Office of Inspector Genera1




            AUDIT REPORT

  MANAGEMENT OF FEDERAL GRANTS,
      PUBLIC SCHOOL SYSTEM,
      COMMONWEALTH OF THE
    NORTHERN MARIANA ISLANDS

             REPORT NO. 99-I-147
              DECEMBER 1998
                                                                          N-IN-NMI-005-97
              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240

Ms. Marja Lee Taitano
                                                                    DEC 1 5 1998
Chairwoman, Board of Education
Public School System
Commonwealth of the Northern Mariana Islands
P.O. Box 1370 CK
Saipan, MP 96950

Subject:    Audit Report on Management of Federal Grants, Public School System,
            Commonwealth of the Northern Mariana Islands (Nv . 93-I-147 )

Dear Ms. Taitano:

This report presents the results of our review of the Public School System’s management of
Federal grants. The objective of the audit was to determine whether the Public School
System’s grants management system ensured that applicable laws and regulations were
complied with as they related to (1) the procurement and administration of contracts and
property, (2) the identification and allocation of costs for personnel and for contract
employees, and (3) the billing of and control over cash drawdowns.

As part of the audit, we evaluated the accounting and management controls over
procurement, property, personnel costs, and cash drawdo\cns. Our audit disclosed that
personnel services costs charged to Federal grant programs were adequately supported by
time and attendance records and that cash drawdowns were made in compliance with Federal
cash management standards. However, we found that the Public School System needed to
make improvements in the areas of procurement and property management.

Specifically, our audit disclosed that the Public School System (1) did not adequately justify
the use of sole source and emergency procurement methods; (2) split procurements into small
purchases: which resulted in competitive procurement methods not being used; and (3) did
not obtain the required number of written price quotations for small purchases. Furthermore,
the Public School System did not maintain accurate inventory records for reportable property
and did not ensure that all controlled property was eventually recorded in the property
records. In addition, the Public School System used funds provided by the Federal Transit
Administration to pay for school bus repairs that should have been covered under the
warranty from the seller/manufacturer.

These deficiencies occurred because the Public School System had not (1) developed
procurement plans to facilitate competitive procurement, (2) developed and implemented
written procedures to ensure that small purchases were reviewed for possible consolidation
by the Procurement and Supply Office, (3) established adequate written procedures to ensure
that the Procurement Rules and Regulations were followed, (4) developed adequate property
control procedures and forms, (5) required the seller/manufacturer of the buses to provide
warranty service through a local representative, and (6) maintained centralized files and
controls over warranties. As a result, the Public School System did not have full assurance
that the best prices were received on at least 139 small purchases, totaling $523,589. In
addition, the Public School System did not have control over accountable property of
$197,964 that was purchased with Federal funds, and it unnecessarily used Federal funds of
$17,044 to repair buses.

To correct these conditions, we recommended that you, as the Chairwoman of the Board of
Education, direct the Commissioner of Education to develop and submit written procedures
to the Board for (1) preparing annual procurement plans, (2) ensuring that purchase
requisitions are consolidated to the maximum extent possible, (3) performing biennial
physical inventories, (4) requiring delivery of all accountable property directly to the
Procurement and Supply Office’s central warehouse for receiving and tagging, and (5)
ensuring that a centralized file for warranties is maintained and that warranties are used to
make any necessary repairs. In addition, we recommended that the Public School System (1)
enforce provisions of the Procurement Rules and Regulations that prohibit artificially
dividing procurements to avoid competitive bidding and that require three written price
quotations for small purchases; (2) conduct a complete physical inventory of accountable
property, compare the results with existing property records, and investigate and resolve any
discrepancies; (3) revise the property record card format to include all information required
by Federal regulations; (4) establish and maintain a general fixed assets account group in the
new financial management system; and (5) require the seller/manufacturer of the buses to
provide warranty service through an arrangement with a local representative and seek
reimbursement from the seller/manufacturer for the cost of repairs made to the school buses
during the warranty period.

The Commissioner of Education’s November 9. 1998, response (Appendix 2) to the draft
report on behalf of the Board of Education indicated concurrence with
Recommendations A. 1, A.2, A.3, B. 1, B.2, B.3, B.4, B.5, and B.7. Based on the response,
we consider these recommendations resolved but not implemented. However, the Board did
not concur with Recommendation B.6, and we consider this recommendation unresolved.
Accordingly, the unimplemented recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation, and the Board is
requested to reconsider its response to Recommendation B.6.

The Inspector General Act, Public Law 95-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response, as required by Public Law 97-357, to this
report by January 15, 1999. The response should be addressed to our Pacific Officel
4 15 Chalan San Antonio, Baltej Pavilion, Suite 306, Tamuning, Guam 969 11. The response
should provide the information requested in Appendix 3.
We appreciate the assistance ofthe management and staff of the Public School System in the
conduct of our audit.




                                            Eljay B. Bowron
                                            Inspector General
                                             CONTENTS


                                                                                                               Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . .._._.............._............. 1

      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
      OBJECTIVE AND SCOPE ......................................... 1
      PRIOR AUDIT COVERAGE ....................................... 2

FINDINGS          AND         RECOMMENDATIONS                        ........................_.....__.            3

      A. PROCUREMENT ACTIVITIES .................................. 3
      B. PROPERTY MANAGEMENT ....................................6

APPENDICES

      1. CLASSIFICATION OF MONETARY AMOUNTS ................... 10
      2. RESPONSETOTHEDRAFTAUDITREPORT . . . . . . . . . . . . . . . . . . . . . 11
      3. STATUS OF AUDIT REPORT RECOMMENDATIONS .............. 15
                                 INTRODUCTION
BACKGROUND

The Public School System was established in October 1988 by Commonwealth of the
Northern Mariana Islands Public Law No. 6-10 as a nonprofit corporation of the
Commonwealth. The Public School System is under the direction of the Board of Education,
which consists of five voting members elected at large on a nonpartisan basis and three
nonvoting members appointed by the Governor. The Public School System is the state
education agency responsible for operating all of the Commonwealth’s public preschool,
elementary, and secondary education programs. The Commissioner of Education, who is
appointed by the Board, is responsible for administering the Public School System in
accordance with applicable laws and Board policies. During fiscal year 1996, the Public
School System had 1,183 employees, expended local fknds of $32.3 million and Federal
funds of $1 I .5 million, and administered 16 schools located on three islands with a total
enrollment of 8,250 students. By law, the public elementary and secondary education system
is guaranteed an annual budget of not less than 15 percent of the general revenues of the
Commonwealth.

Through Board Policy 1004, the Board of Education adopted the “CNMI [Commonwealth
ofthe Northern Mariana Islands] Public School System Procurement Rules and Regulations.”
These regulations created the Public School System’s Procurement and Supply Office, which
is headed by a Procurement and Supply Officer. The Procurement and Supply Officer is
responsible for (1) ensuring that procurement regulations are followed; (2) conducting
procurement activities such as bidding, negotiating professional services contracts, and
administering contracts; (3) planning for the centralized purchase of supplies; (4) providing
general supervision and control over supply inventories; and (5) establishing and maintaining
programs for the inspection, testing, and acceptance of supplies.

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Public School System’s grants
management system ensured that applicable Federal laws and regulations were complied with
as they related to (1) the procurement and administration of contracts and property, (2) the
identification and allocation of costs for personnel and for contract employees, and (3) the
billing of and control over cash drawdowns.

The scope of the audit, which was conducted during the period of September 1997 to May
1998, included a review of the Public School System’s procedures and controls for the
management of Federal grants that were in effect during fiscal years 1995 through 1997. We
also examined financial and administrative records and reports at the Public School System’s
Federal Programs, Fiscal and Budget, and Procurement and Supply Offices, as well as
documents and reports related to Public School System’s capital improvement projects
maintained at the Commonwealth’s Department of Finance. In addition, we interviewed
Public School System and Commonwealth offkials and private contractors and visited public

                                             I
schools on the islands of Saipan, Tinian, and Rota to inspect property purchased with Federal
funds. However, we could not determine the total number and value of property items
purchased with Federal funds because the Public School System’s property records were
inaccurate (see Finding B).

The audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated the accounting and management controls over
procurement, property, personnel costs, and cash drawdowns. We determined that personnel
services costs charged to Federal grant programs were adequately supported by time and
attendance records and that cash drawdowns were made in compliance with Federal cash
management standards, which require the Public School System to minimize the elapsed
time between the transfer of funds from the U.S. Treasury and the disbursement of funds by
the Public School System. However, we found internal control weaknesses in the methods
used by the Public School System to conduct procurements and manage property. The
internal control weaknesses are discussed in the Findings and Recommendations section of
this report. Our recommendations, if implemented, should improve the internal controls in
these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any audit reports
pertaining to the Public School System’s management of Federal grants. However, in
January 1993, the Office of Inspector General issued the audit report “Food Service
Operations, Public School System, Commonwealth of the Northern Mariana Islands”
(No. 93-I-403) which stated that the Public School System submitted to the Food and
Nutrition Service, U.S. Department of Agriculture, claims for Federal cash assistance based
on (1) meal claims percentages that were not valid and (2) meals that were not eligible for
reimbursement.

In addition, in January 1998, the Commonwealth Office of the Public Auditor issued the
audit report “Audit of Marianas High School Gymnasium Contract” (No. AR-98-01). The
report stated that the Public School System “poorly managed” the gym construction project
and was “negligent” in enforcing applicable contract provisions and procurement regulations.
The report concluded that about $970,000 in local government funds may have been
“wasted” as a result of mismanagement by School System officials.

Finally, in February 1996, a certified public accounting firm issued a single audit on the
Public School System for the fiscal year ended September 30, 1994. The single audit report
stated that the Public School System (1) did not maintain a properly valued register of all
fixed assets on hand and (2) did not have title from or lease agreements with the
Commonwealth’s Division of Public Lands for land on which several of its schools were
located. Single audit reports for fiscal years1995,1996, and 1997 had not been issued as of
July 1998.

                                             2
               FINDINGS AND RECOMMENDATIONS

A. PROCUREMENT ACTIVITIES

The Public School System did not ensure that procurement activities involving Federal grant
funds were carried out in accordance with applicable laws and regulations. Specifically, the
Public School System (1) split procurements into small purchases to avoid the use of
competitive procurement methods, (2) did not obtain the required number of written price
quotations for small purchases, and (3) did not adequately justify the use of sole source and
emergency procurement methods. Procurement requirements are contained in the “CNMI
Public School System Procurement Rules and Regulations.” The deficiencies occurred
because the Public School System had not developed procurement plans to facilitate the
competitive procurement of goods and services by the Procurement and Supply Office. In
addition, there were no written procedures to ensure that small purchases were reviewed by
the Procurement and Supply Office to determine whether separate purchase requisitions
could be consolidated. Also, the Public School System had not established adequate written
procedures to ensure compliance with the “Procurement Rules and Regulations.” As a result,
the Public School System did not have full assurance that the best prices were received on
at least 139 small purchases, totaling $523,589.

Procurement Standards

Section 3-l 01 ofthe “Procurement Rules and Regulations” requires that all contracts ofmore
than $10,000 be awarded on the basis of competitive sealed bids except for small purchases,
sole source procurements, emergency procurements, and procurements of professional and
architect-engineer services. According to Section 3- 104, sole source procurements require
that the official who has expenditure authority provide a written determination of “the unique
capabilities required and why they are required and the consideration given to alternative
sources.” In addition, the Procurement and Supply Officer is required to state in writing that
there is only one source for the required goods or services. Additionally, according to
Section 3-l 05, emergency procurements require a written justification by the official who has
expenditure authority of the basis for the emergency and the basis for the selection of a
particular contractor. The justification must include the extent and nature of the harm to the
Public School System, such as a threat of serious financial or other injury, and must be
approved by the Procurement and Supply Officer and the Commissioner of Education.

Further, Section 3-l 03 of the “Procurement Rules and Regulations” defines small purchases
as those valued at $10,000 or less. Purchases under $2,500 may be made without obtaining
bids or price quotations if the Procurement and Supply Officer considers the price to be
reasonable. For small purchases valued at $2,500 to $10,000, written price quotations must
be obtained from at least three vendors, and the selection must be based on competitive price
and quality. Section 3-103 also states that procurement requirements should not be
artificially divided so as to constitute a small purchase. Section 2-l 05 of the “Procurement
Rules and Regulations” states that if the Procurement and Supply Officer determines that a


                                             3
procurement requirement has been split into smaller requisitions for the purpose of avoiding
bidding, the Officer may require the contract to be bid competitively.

Small Purchases

The Public School System split procurement requisitions, thereby avoiding the requirement
that competitive sealed bidding should be used on large dollar procurements, and it processed
small purchases without obtaining the required number of written price quotations. These
conditions occurred because the Public School System had not developed procurement plans
to facilitate the competitive procurement of goods and services by the Procurement and
Supply Office. In addition, there were no written procedures to ensure that small purchases
were reviewed by the Procurement and Supply Office to determine whether separate
purchase requisitions could be consolidated. Also, the Public School System had not
developed adequate written procedures to ensure that the “Procurement Rules and
Regulations” were followed. As a result, the Public School System did not have Ml
assurance that the best prices were received for goods and services totaling at least $523,589
during fiscal years 1995 through 1997.

 Based on our review of the purchase order logbooks maintained by the Fiscal and Budget
 Office, we determined that during fiscal years 1995 through 1997: the Public School System
processed 7,271 purchases of less than $2,500, totaling $5.2 million; 4,768 purchases
between $2,500 and $10,000, totaling $13.6 million; and 203 purchases of more than
 $10,000, totaling $15.9 million. Of these procurement actions, the following were for
Federal programs: 3,263 purchases of less than $2,500, totaling $2.5 million; 2,634
purchases between $2.500 to $10,000, totaling $6.0 million; and 123 purchases ofmore than
$10,000, totaling $11.9 million. Of the Federally funded procurement actions, we
judgmentally selected and reviewed 62 purchases of less than $2,500, totaling $96,780; 71
purchases from $2,500 to $10,000, totaling $36 1,189; and 6 purchases of more than $10,000,
totaling $1.9 million. We did not identify any exceptions related to the six purchases of more
than $10,000 that were included in our sample. However, we determined that 112 purchase
orders of $10,000 or less, totaling $335,354, had been split, thereby avoiding the requirement
that competitive price quotations or sealed bids should be obtained. As a result, for these 112
purchase orders, the Public School System did not have assurance that the best prices were
received.

For example, on November 9, 1995, the Research, Information, and Training Officer
submitted four internal requisitions--three for $4,52 1 each and one for $2,32 1 --to purchase
four copies of a multiuser computer software package from a local vendor. In January and
February 1996, four formal purchase orders, each in the amount of $3,971 and totaling
$15,884, were issued to the vendor to acquire the software package. In our opinion, since
the total amount of the procurement exceeded the small purchase threshold of $10,000, the
requisitions should have been consolidated and processed using competitive procurement
methods.

We also found that the Public School System did not obtain three written price quotations
when it made small purchases of $2,500 to $10,000. We judgmentally selected and reviewed

                                              4
an additional 46 purchase orders, totaling $307,857, and found that 1 purchase order, for
$4,000, was correctly processed as a sole source procurement and that 18 purchase orders,
totaling $115,622, were processed with the required three written price quotations. However,
 15 purchase orders, totaling $107,305, were processed with only two written price
quotations, and 12 purchase orders, totaling $80,930, were processed with only one written
price quotation. In addition, for the 12 purchase orders with one quotation, 5 had no written
justifications to support the use of sole source or emergency procurement methods, and 7 did
not have adequate written justification to support the use of sole source procurement
methods. As a result, for the 27 purchase orders, totaling $188,235, the Public School
System did not have assurance that the best prices were received.

The Procurement and Supply Officer told us that because the schools and
administrative/program offices did not plan their procurements, they made many small
purchases, which could have been consolidated and processed using competitive
procurement methods. The Procurement and Supply Officer also said that there was no
system in place to detect and consolidate requisitions for like items and that she did not have
adequate staff to thoroughly screen the large number of purchase requisitions submitted to
her office for processing. In our opinion, if the Public School System had developed and
used annual procurement plans, the Procurement and Supply Office would have had
sufficient lead time to consolidate similar items, process procurement requests
competitively, and potentially lower costs.

Recommendations

We recommend that the Chairperson, Board of Education, direct the Commissioner of
Education to:

       1. Develop and submit to the Board for approval written procedures for preparing
annual procurement plans to ensure that the Procurement and Supply Office has sufficient
lead time to process purchase requisitions competitively.

      2. Develop and submit to the Board for approval written procedures to ensure that
purchase requisitions, including purchases of $10,000 and less, are consolidated to the
maximum extent possible.

        3. Enforce provisions of the “Procurement Rules and Regulations” that prohibit the
artificial dividing of procurements which results in competitive bidding requirements being
bypassed and require three written price quotations for small purchases of $2,500 to $10,000.

Board of Education Response and Office of Inspector General Reply

The Commissioner of Education’s November 9, 1998, response (Appendix 2) to the draft
report on behalf of the Board of Education concurred with Recommendations 1 through 3.
Based on the response, we consider all three recommendations resolved but not implemented
(see Appendix 3).

                                              5
B. PROPERTY MANAGEMENT

The Public School System did not adequately record, control, and manage fixed assets
acquired with Federal grant funds. Specifically, the Public School System did not maintain
accurate inventory records for reportable property and did not ensure that all controlled
property was eventually recorded in the property records. In addition, the Public School
System did not conduct the required physical inventories of accountable property, and it used
funds provided by the Federal Transit Administration to pay for school bus repairs that
should have been covered under the warranty from the seller/manufacturer. Federal property
management requirements applicable to the Public School System’s grant programs are
contained in Title 34 of the Code of Federal Regulations. The deficiencies occurred because
the Public School System did not have adequate property control procedures and property
record cards, did not require the seller/manufacturer of the buses to provide warranty service
through a local representative, and did not maintain centralized files and controls over
warranties. As a result, the Public School System did not have adequate control of
accountable property of at least $197,964 that was purchased with Federal funds, and it
unnecessarily spent Federal funds of $17,044 to repair buses.

Property Management Standards

Title 34 of the Code of Federal Regulations contains the standards for property management
activities for equipment purchased with Federal grant funds. Section 80.32(d)( 1) ofthe Code
requires grantees to maintain records that include specific information on assets purchased
with Federal funds, and Section 80.32(d)(2) requires grantees to conduct physical inventories
at least every 2 years. Although Section 1550 of Commonwealth Public Law No. 6-10 (the
Education Act of 1988) requires the Board of Education to establish policies for proper
management and control of property, including equipment and vehicles, the Board had not
established adequate policies and procedures.

Reportable Property

The Public School System did not adequately control and account for reportable property
purchased with Federal funds. This condition occurred because the Public School System
had not developed and implemented written procedures to ensure that reportable property
was adequately controlled. As a result, the Public School System was unable to locate
70 property items, valued at $197,964, and at least 82 property items of unknown value
located at three schools were not recorded in the Public School System’s reportable property
records, which made these items vulnerable to loss or theft.

As disclosed in the single audit report for fiscal year 1994, the Public School System did not
conduct inventories or value its fixed assets and did not include a fixed assets account group
in its financial statements, The former Fiscal and Budget Officer said that the Public School
System planned to resolve these deficiencies with a new automated financial management
system, which was scheduled to be implemented by October 1, 1998. The Procurement and
Supply Officer stated that her office had maintained a database for controlled assets on a

                                             6
 “stand-alone” personal computer but that this system had malfunctioned in April 1997.
Consequently, for almost 1 year, the control system consisted of only a manually maintained
property card file. As an interim solution, the Procurement and Supply Office created a new
computer database tile in March 1998 from information shown on the property record cards.
However, the database was incomplete because the property record card form did not include
all of the data elements required by Federal regulations, such as the source of the property,
the grant award number, the determination as to whether title vests in the Public School
System or the Federal Government, and the percentage of Federal participation in the cost
of the property. In addition, we determined that since its inception in October 1988, the
Public School System had not taken a physical inventory and reconciled the results with the
property record card file. Furthermore, since the requesting school and administrative
officials were allowed to receive goods directly from local vendors, there was no assurance
that equipment was eventually recorded on the property record cards or tagged as property
of the Public School System. Because of the incompleteness of the property record cards,
we could not determine the total value of Federally funded property. Additionally, because
equipment was delivered to the individuals who initiated the purchases, there was
insufficient segregation of responsibilities to ensure that the items were properly controlled
and used for official purposes. We believe that vendors should be required to deliver all
accountable property to the Procurement and Supply Office central warehouse for receiving,
tagging, and delivery to the requesting official.

We obtained, from the Procurement and Supply Offke, a listing of the property record
database as of March 20, 1998. From this list, we selected 160 property items, valued at
$43 1,473, for physical inspection at a high school onSaipan and at elementary schools on
the islands of Tinian and Rota. Of the 160 property items, the schools were unable to locate
70 items (44 percent), valued at $197,964. In addition, the schools were unable to provide
survey or missing property reports for the 70 missing items. At the schools, we also found
82 property items, consisting of computer, audiovisual, and shop equipment, that were not
recorded in the Public School System’s reportable property records. As a result, these
sensitive items were vulnerable to loss or theft.

Bus Repairs

On December 27,1995, the Public School System awarded, to a bus manufacturer in North
Carolina, a contract to purchase 12 new school buses. The school buses were purchased with
funds provided by the Federal Transit Administration. The bid specifications required the
manufacturer to provide a 60-month, 100,000 mile warranty, which was shown in the
manufacturer’s bid submission. However, between August 1996 and May 1997, the Public
School System spent Federal Transit Administration funds of $17,044 to repair the air
conditioning on the buses, although the repairs should have been covered by the
manufacturer’ s warranty.

Based on our review of contract files at the Procurement and Supply Office, we found that
the manufacturer of the new buses had not designated a local repair shop to handle warranty
repairs and that the Public School System administration had not required the manufacturer
to provide the name of a local representative to provide service under the warranty. Also,

                                             7
we found that the Public School System did not have control records and a central file for
warranties.

The Public School System’s chiefmechanic stated that although he had not seen the warranty
documents for the new buses and his shop did not file warranty documents for any of the
Public School System’s vehicles, he did have the warranty manual from the factory, which
provided instructions on how to process claims for warranty repair service. In addition, the
former Fiscal and Budget Officer stated that her office planned to submit the invoices and
payment documents to the bus manufacturer for reimbursement of repair costs under
warranty. However, as of March 1998, warranty reimbursement had not been requested or
received by the Public School System.

Recommendations

We recommend that the Chairperson, Board of Education, direct the Commissioner of
Education to:

      1. Develop and submit to the Board for approval written procedures for performing
biennial physical inventories of accountable property acquired with Federal funds.

      2. Immediately conduct a complete physical inventory of accountable property,
compare results with information on existing property records, and investigate and resolve
any discrepancies found during the physical inventory.

      3. Revise the format of the property record card form to include all the information
required by Federal regulations, such as the source of the property and the grant award
number, the determination as to whether title vests in the Public School System or the
Federal Government, and the percentage of Federal participation in the cost of the property.

     4. Establish and maintain a general fixed assets account group in the new financial
management system to ensure that property purchased with Federal funds is controlled.

       5. Develop and submit to the Board for approval written procedures to require vendors
to deliver all accountable property directly to the Procurement and Supply Office central
warehouse for receiving, tagging, and delivery to the requesting official.

       6. Require the seller/manufacturer of the buses to provide warranty service through
an arrangement with a local representative and seek reimbursement from the
seller/manufacturer for the cost of repairing the buses during the warranty period.

      7. Develop and submit to the Board for approval written procedures to ensure that a
centralized file for warranties is maintained and that warranties are used to make any
necessary repairs.




                                             8
Board of Education Response and Office of Inspector General Reply

The Commissioner of Education’s November 9, 1998. response (Appendix 2) to the draft
report on behalf of the Board of Education concurred with Recommendations 1,2,3,4,5,
and 7. The Board also indicated disagreement with the portion of the finding related to
Recommendation 6. Based on the response, we consider Recommendations1,2,3,4,5, and
7 resolved but not implemented and request that the Board reconsider Recommendation 6,
which is unresolved (see Appendix 3).

Recommendation 6. Nonconcurrence indicated.

      Board of Education Response. The Board indicated disagreement with the section
of the report “Bus Repairs” and requested that this section be deleted. The Board stated that
“because of a dispute over billings between the manufacturer ofthe air conditioning units and
the firm doing the retrofits and service,” the Public School System paid for the retrofits and
service on the buses and was reimbursed by the seller/manufacturer of the buses for services
covered under warranty. In addition, the Board stated that it “must take issue” with the
$17,044 amount cited in our report and that the amount should be $9,971 because the
difference was related to nonwarranty items such as oil filters. The Board further stated that
the Public School System expects “to receive a reimbursement shortly” from the
seller/manufacturer of the buses.

      Office of Inspector General Reply. As stated in our report, the Fiscal and Budget
Officer told us that, although planned, warranty reimbursement had not been requested by
the Public School System as of the time of our audit (March 1998). Although the Board
states that the Public School System “was reimbursed” by the seller/manufacturer of the
buses “for work covered under the warranty,” the reply to Recommendation 6 states that the
Board has “requested reimbursement” from the seller/manufacturer. In regard to the amount,
we obtained copies of paid invoices totaling $17,044 for air conditioning repairs during the
audit. These invoices did not include any regular maintenance items, such as oil filters,
which are not covered under warranty. In our opinion, the dispute between the manufacturer
of the air conditioning units and the firm doing the retrofits and service on the buses could
have been avoided had the seller/manufacturer of the buses appointed a local representative
to handle warranty services on the buses. The recommendation is intended to reduce the
likelihood of similar disputes for any future warranty service that may become necessary on
the buses. Therefore, the Board of Education is requested to reconsider its response to the
recommendation.
                                                   APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS


                                           Funds To Be Put
              Finding Areas                 To Better Use*
    A. Procurement Activities
        Small Purchases                        $523,589


    B. Property Management
       Reportable Property                      197,964
       Bus Repairs                               17,044

            Total                              $738.597




*Amounts represent Federal funds.




                                    10
                                                                                                            APPENDIX 2
                                                                                                            Page 1 of 4
                                                   ~FTHENORTHERN
                                         Q+
                                   Ot@         STATE BOARD OF EDUCATION
                             vi+                 PUBLIC SCHOOL SYSTEM
                       cl0
                                                     P.O. BOX 1370 CK
                                                       SNPAN, MP 96950

CHAIRPERSON
MARJA LEE C. TAKANO                                                                                               Comml~mlonw of Educrtlon
                                                                                                                        RiiHocopInm6dD
VICE-CHAIRMAN
THCMAS 8. PANGELINAN

MEMBERS
FRANCES H. DlAZ                                                                November 9, 1998
ESTHER S. FLEMING

                                                                              [‘l’HE OFFICE OF INSPECTOR GENERAL
ANTHONY PELLEGRINO

P U B L I C S C H . TEAbRa&efi   J. Williams                                  HAS DELETED FROM THE RESPONSE THE
DAVID         Assistant inspector General for Audits
            BORJA
                                                                              IDENTITIES OF THE BUSINESSES
,“&“;‘,“,“~cK$~&Jfff?EVfYhe Inspector General                                 DISCUSSED IN THE REPORT.]
STUDENT REP. North Pacific Region
MERCEDA ADA 238 Archbishop Flores Street
              PDN Bldg. Suite 807
              Agana, Guam 96910

                Dear Mr. Williams:

                Thank you for performing an audit of the grants management system
                of the CNMI Public School System. We appreciate your mentioning
                that personnel costs charged to federal grants and cash drawdowns
                were in accordance with federal standards.  We also appreciate your
                noting areas such as procurement and property management that are
                deficient.

                We must take issue with your assertion that the PSS used Federal
                Transit Administration (FTA) grant funds to pay for school bus
                repairs that should have been covered under the warranty. What PSS
                did was pay for air conditioning system retrofits and maintenance
                and then was reimbursed by                                 the manufacturer
                for work covered under the warranty.          This        arrangement       was
                necessary because o f a d i s p u t e o v e r b i l l i n g s b e t w e e n t h e
                manufacturer of the air conditioning units and the firm doing the
                retrofits and service on our buses. Also, we must take issue with
                the $17,044 amount which appears to include items not covered
                under the warranty such as oil filters. Our records show $9,971
                balance due from                         and we expect to receive a
                reimbursement shortly.         We therefore respectfully request a
                deletion of the finding on bus repairs.

                We will address the recommendations in the order in which they
                were presented. They are as follows:


      Board of Education                                           11                                   Commlrrloner o f Education
 Telephone: (670) 664-371113727                                                                          Telephone: (670) 664-3770
              __^   ___-   --2<        rCr:.-. cu-.,I..,*,. PC,;“*” r--f,,,.rn,,,Cnrlncclirrcnv I.‘“.    cm,v     ,FTn,   Cr”.?,oC
                                                           APPENDIX 2
                                                        ---Page 2 of 4



Inspector General Audit Response
November 9, 1998
P.-Z


Procurement   Recommendations:

Recommendat ion No. l_: Develop and submit to the Board for approval
written procedures for preparing annual procurement plans to ensure
that the Procurement and Supply Office has sufficient lead time to
process purchase requisitions competitively.

Auditee Response: We concur with this finding.

Corrective Action Plan; This will be done by the Procurement &
Supply Officer within the next 120 days.

Recommendation No. 2: Develop and submit to the Board for approval
written procedures to ensure that purchase requisitions, including
purchases of $10,000 and less, are consolidated to the maximum
extent possible.

Auditee Response; We concur and will work with our schools to
maintain a framework for consolidated orders as we evolve toward
site-based management with expenditure authority and procurement
functions devolving to thye schools.

Corrective Action Plan: This will be done by the Procurement &
Supply Officer and Internal Auditor within the next 90 days.

Recommendation No. 3; Enforce provisions of the “Procurement
Rules and Regulations” that prohibit the artificial dividing of
procurements which results in competitive bidding requirements
being bypassed and require three written price quotations for small
purchases of $2,500 to $10,000.

Auditee Response: We concur and will work with our schools on
strict adherence to procurement rules and regulations small
purchase procedures as we evolve toward site-based management
with expenditure authority and procurement functions devolving to
thye schools.

Corrective Action Plan: This is being done by the Procurement and
Supply Officer, Internal Auditor and our Principals.

                                   12
                                                           APPENDIX 2
                                                           Page 3 of 4


Inspector General Audit Response
November 9, 1998
P.-3

ProDerty Manaaement;

Recommendation No. 1; Develop and submit to the Board for approval
written procedures for performing biennial physical inventories of
accountable property acquired with federal funds.

Auditee Response: We concur.

Corrective Action Plan:     This will be done by the Internal Auditor
within the next 120 days.

Recommendatioo Immediately conduct a complete physical
inventory of accountable property acquired with federal funds.

Auditee Resbonse; We have completed the physical inventory and are
reconciling records.

Corrective Action Plan: This is being done by the Procurement &
Supply Office staff under the supervision of the Procurement and
Supply Officer.

Recommendation No. 3: Revise the format of the property card form
to include all the information required by federal regulations, such
as the source of the property and the grant award number, the
determination as to whether title vests in the Public School System
or the federal government, and the percentage of federal
participation in the cost of the property.

Auditee Response; We concur.

Corrective Action Plan: This will be done by the Procurement &
Supply Officer within the next 60 days.

Recommendation Establish and maintain a general fixed asset
group in the new financial management system to ensure that
property purchased with federal funds is controlled.

Auditee Response; We concur.

Corrective Action Plan: This will be accomplished in FY 2000 under
the supervision of the Fiscal and Budget Officer.
                                   13
                                                         APPENDIX 2
                                                         Page 4 of 4


 Inspector General Audit Response
 November 9, 1998
 P.-4

Recommendation No. 5; Develop and submit to the Board for approval
written procedures to require vendors to deliver all accountable
property directly to the Procurement and Supply Office warehouse
for receiving, tagging and deliver to the requesting official.

Auditee Response; We concur and will work with our schools on
property accoutability procedures as we evolve toward site-based
management with expenditure authority and procurement functions
devolving to thye schools.

Corrective Action Plan; This will be done by the Procurement &
Supply Officer within the next 90 days

Recommendation No. 6: Require the manufacturer of the buses to
provide warranty service through an arrangement with a local
company and seek reimbursement from the manufacturer for the
costs of repairing the buses during the warranty period.

Auditee Remonse: We had an arrangement for the warranty service
with                    and have requested reimbursement from
m-j for services covered under the warranty.

Corrective Action Plan; Not Applicable.

Recommendation No. 7; Develop and submit for board approval
written procedures to ensure that a centralized file for warranties
is maintained and that warranties are used to make repairs.

Auditee Response; We concur.

Corrective Action Plan: This will be done by the Procurement &
Supply Officer within the next 90 days.

Should you have any questions, please contact Tim Thornburgh of my
Federal Programs Office at (670) 664-3789.

Sincerely,


              s, Ed. D
              of Education
                                    14
                                                                           APPENDIX 3
                                                                             Page 1 of 2

       STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                         Action Required

      A.1 and A.3        Resolved; not        No tier response to the Office of
                         implemented.         Inspector General is required. The
                                              recommendations will be referred to the
                                              Assistant Secretary for Policy,
                                              Management and Budget for tracking of
                                              implementation. However, when
                                              approved, a copy of the written
                                              procedures should be provided to our
                                              Pacific Office.

          A.2            Resolved; not        No Wher response to the Office of
                         implemented.         Inspector General is required. The
                                              recommendation will be referred to the
                                              Assistant Secretary for Policy,
                                              Management and Budget for tracking of
                                              implementation.

   B. 1, B.5, and B.7    Resolved; not        No further response to the Office of
                         implemented.         Inspector General is required. The
                                              recommendations will be referred to the
                                              Assistant Secretary for Policy,
                                              Management and Budget for tracking of
                                              implementation. However, when
                                              approved, a copy of the written
                                              procedures should be provided to our
                                              Pacific Office.

          B.2            Resolved; not        No further response to the Office of
                         implemented.         Inspector General is required. The
                                              recommendation will be referred to the
                                              Assistant Secretary for Policy,
                                              Management and Budget for tracking of
                                              implementation. However, when
                                              completed, a copy of the inventory
                                              reconciliation report should be provided
                                              to our Pacific Office.




                                         15
                                                                           APPENDIX 3
                                                                             Page 2 of 2

Finding/Recommendation
       Reference            status                        Action Required

         B.3             Resolved; not      No further response to the Office of
                         implemented.       Inspector General is required. The
                                            recommendation will be referred to the
                                            Assistant Secretary for Policy,
                                            Management and Budget for tracking of
                                            implementation. However, when revised,
                                            a copy of the new property record card
                                            form should be provided to our Pacific
                                            Office.

         B.4             Resolved; not      No further response to the Office of
                         implemented.       Inspector General is required. The
                                            recommendation will be referred to the
                                            Assistant Secretary for Policy,
                                            Management and Budget for tracking of
                                            implementation. However, when
                                            established, a copy of the system
                                            procedures for the general fixed assets
                                            account group should be provided to our
                                            Pacific Office.

         B.6             Unresolved.        Reconsider the recommendation. If
                                            concurrence is indicated, provide the
                                            target date and the title of the official
                                            responsible for requiring the
                                            seller/manufacturer of the buses to
                                            designate a local representative to provide
                                            any future warranty service and for
                                            ensuring that reimbursement is received
                                            from the seller/manufacturer for the cost
                                            of repairing the buses during the warranty
                                            period. If nonconcurrence is indicated,
                                            provide reasons for the nonconcurrence.




                                       16
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Offke of Inspector General                              Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 969 11
Toil Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

lTS/Commerciai Numbers:
  (202) 208-5300
  TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail Stop 5341
Washingron. D.C. 20240
